Rachlis Duff & Peel, LLC
542 SOUTH DEARBORN STREET
SUITE 900
CHICAGO, ILLINOIS 60605
Michael Rachlis
(312) 733-3955
mrachlis@rdaplaw.net

(312) 733-3950
FACSIMILE (312) 733-3952
www.rdaplaw.net

August 27, 2021
Mr. Scott S. Harris
Clerk of the Court
Office of the Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001

Ms. Mara Silver
Emergency Applications Clerk
Office of the Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, D.C 20543-0001

Re: Protect Our Parks, Inc. et al.

v. Pete Buttigeig, Secretary of Transportation, et al, No. 21A22
Dear Mr. Harris and Ms. Silver:
I am co-counsel with Richard A. Epstein and Thomas Gardiner of Gardiner Koch
Weisberg & Wrona representing the Applicants, and write on behalf of the Applicants in the
above-referenced matter. Consistent with Supreme Court Rule 22.4, the Applicants are renewing
their Emergency Application for Writ of Injunction and designating that such Application be
submitted to Chief Justice John G. Roberts, Jr. Applicants note that the Appendix includes an
additional opinion from the Seventh Circuit Court of Appeals which was not issued and available
until after the Application was originally filed on August 17, 2021. While the Emergency
Applications Clerk was informally notified of such decision, that opinion is now being provided
formally as part of the renewed Application.
Applicants further note that on April 26, 2021, this Court denied a Petition for Certiorari
in Case No. 20-1259 involving one of the Applicants (Protect Our Parks) and two of the
Respondents (City of Chicago and Chicago Park District), and expressly noted that Justice
Barrett did not participate in the consideration or decision on that Petition.
Very truly yours,

Michael Rachlis
Counsel of Record and one of the Applicants’ Attorneys

